Fiscal Year 2006 Financial Statement Audit
          Letter to Management


            Report No. 07-01
            February 9,2007




RAILROAD RETIREMENT BOARD
                       UNITED STATES RAILROAD RETIREMENT BOARD

                                     OFFICE OF INSPECTOR GENERAL




                                                             February 9, 2007


Michael S, Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our attention
during our recent audit of the Railroad Retirement Board’s (RRB) financial
statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 3, 2006, except for matters relating to the fair
market value of the net assets of the National Railroad Retirement Investment Trust
as of September 30, 2006, as to which the date was November 15, 2006. We
performed our audit in accordance with U.S. generally accepted government
auditing standards and OMB audit guidance as applicable to the scope of our
audit. 1 We have not considered internal control since the end of our general
purpose fieldwork on November 3, 2006; internal control was not among those
matters to which we gave consideration between November 3rd and November 15th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a reportable
condition, the details of which are presented in the attached memorandum. That
memorandum also presents the full text of those matters previously reported as
material weaknesses and reportable conditions in conjunction with our opinion on
the financial statements. However, neither this letter, nor the attached
memorandum, modifies our report dual dated as of November 3, 2006 and
November 15, 2006, referred to above.

Our observations concerning internal control were presented to responsible agency
management who were offered the opportunity to review and comment on the draft
memorandum. Their responses are also attached.

In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the


1
    See our report on the RRB’s financial statements for a full description of the scope and methodology.




844 N RUSH STREET CHICAGO IL 60611-2092                                     Printed on recycled paper with soy ink
Letter to Management                                                        Page 2

RRB's principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the RRB's
control objectives is the responsibility of management. Because of inherent
limitations in any system of internal control, errors or irregularities may
nevertheless occur and not be detected. Also, controls found to be functioning at
a point in time may later be found deficient because of the performance of those
responsible for applying them. There can be no assurance that controls currently
in existence will prove to be adequate in the future as changes take place in the
organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB's system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                Very truly yours,




                                                Martin J. Dickman
                                                Inspector General



Attachments

cc:   V.M. Speakman, Jr., Labor Member
      Jerome F. Kever, Management Member
      Kenneth P. Boehne, Chief Financial Officer
      John M. Walter, Chair, Management Control Review Committee
      Steven A. Bartholow, General Counsel
      Frank J. Buzzi, Chief Actuary
      Beatrice E. Ezerski, Secretary to the Board
Letter to Management                                                                   Page 1
                          Memorandum on Internal Control
                                Table of Contents


MATERIAL WEAKNESSES AND REPORTABLE CONDITIONS

  Material Weaknesses

              Information Security                                                4
              Performance Measures                                                4
              Actuarial Projection Process                                        5

  Reportable Conditions

              Prompt Payment Act                                                  6
              Financial Reporting                                                 6


MATTERS INVOLVING INTERNAL CONTROL THAT, IN THE AGGREGATE,
REPRESENT A REPORTABLE CONDITION

  Errors in the Statements and Related Support Indicate Control Deficiencies 7

              Incorrect Allocation of Earmarked Funds                             7
              Inconsistencies in Earmarked Funds Note                             8
              Inconsistencies between the Statements and the Working Papers       8
              Inconsistencies in the Documentation of Adjusting Journal Entires   9
              Incorrect Beginning Balances                                        10
              Budgetary Obligations Inconsistent with Proprietary Obligations     10
              Miscellaneous Misstatements                                         10
              Better Communication Needed to Ensure the Adequacy of Accruals 11
              OIG Recommendations & Management’s Response                         11

  Documentation Supporting Transaction Recording Not Always Adequate              11

              Transfers from the Department of Labor’s Unemployment Trust Fund 12
              Transfers from the NRRIT                                            13
              Redemption of Investments                                           13
              Recording Contingent Liabilities                                    14
              Benefit Payment Activity                                            14
              Voucher Shows Incorrect General Ledger Accounts                     14
              OIG Recommendations & Management’s Response                         15
Letter to Management                                                     Page 2
                         Memorandum on Internal Control
                               Table of Contents

  Supervisory Review and Approval of Vouchers Not Fully Effective   15

              OIG Recommendations & Management’s Response           16


OTHER MATTERS INVOLVING INTERNAL CONTROL

  Management Control Review Process                                 17

              Performance Reporting                                 18
              General Ledger Accounting                             18
              OIG Recommendations & Management’s Response           18

  Reliability of Legal Representations                              19

              OIG Recommendation & Management’s Response            19

  Ensuring Compliance with Form and Content Requirements            20

              OIG Recommendation & Management’s Response            20

  Federal Financial System                                          21

              Spending Control Features Not Fully Effective         21
              Incomplete FFS Table Entries                          21
              Separation of Duties                                  22
              Privacy Issues                                        22
              OIG Recommendations & Management’s Response           23

  Posting Transactions to the General Ledger                        24

              Delayed Recording                                     24
              Inaccurate Posting                                    24
              OIG Recommendations & Management’s Response           24

  Report on Budget Execution – Approved Copy Missing                25

              OIG Recommendation & Management’s Response            25

  Recording NRRIT Transactions                                      25

              OIG Recommendation & Management’s Response            26
Letter to Management                                                             Page 3
                         Memorandum on Internal Control
                               Table of Contents

ATTACHMENTS

  1. Bureau of Fiscal Operations’ Accounting, Treasury and Financial Systems Division
                                                                             27


  2. Management Control Review Committee                                    33


  3. Office of General Counsel                                              34


  4. Bureau of Fiscal Operations’ Budget Division                           35
Letter to Management                                                                       Page 4

                      MEMORANDUM ON INTERNAL CONTROL

MATERIAL WEAKNESSES AND REPORTABLE CONDITIONS

In conjunction with our opinion on the RRB’s financial statements for the fiscal years
ended September 30,, 2006 and 2005, we reported the following material
weaknesses and reportable conditions.

Material Weaknesses

Information Security

During FY 2006, the OIG evaluated information security pursuant to the provisions
of the Federal Information Security Management Act.2 Our review disclosed
continued weaknesses in many areas of the RRB’s information security program.
Significant deficiencies in program management and access controls make the
agency’s information security program a source of material weakness in internal
control.

The RRB has undertaken the job of strengthening information security and has
implemented many corrective actions recommended by the OIG and other technical
specialists. During FY 2006, the agency completed corrective action to eliminate
the previously reported significant deficiency in training. Previously identified
significant deficiencies in access controls, risk assessments, and periodic testing
and evaluation continue to exist, as well as other observed weaknesses in the
agency’s implementation of requirements for risk based policies and procedures, a
remedial action process, continuity of operations, and inventory of systems.

The agency is addressing their significant deficiencies in the previously reported
areas of access controls, risk assessments, and periodic testing and evaluation;
however, much work remains to be completed.

Performance Measures

During FY 2005, the OIG identified a material weakness in internal control over the
preparation and reporting of performance information due to inadequacies in the
review and validation of data. Although management has made progress in
addressing this weakness, the agency has not yet fully implemented planned
corrective action.

During FY 2006, the Office of Programs, the organizational unit responsible for
reporting on the largest number of complex statistically based indicators,


2
 “Fiscal Year 2006 Evaluation of Information Security at the Railroad Retirement Board,” OIG Report
#06-11, September 27, 2006.
Letter to Management                                                                       Page 5

                      MEMORANDUM ON INTERNAL CONTROL

implemented new controls over the preparation, review and approval of
performance data originating in that organization. In October 2006, the three-
member Board approved an administrative circular establishing standards and
assigning responsibility for collecting, documenting, validating, certifying, reporting
and retaining performance information.

Although procedural changes have been formally approved, those changes have
not been fully implemented, and agency management has not yet operated
under these procedures during a period sufficient to evaluate their effectiveness.

Actuarial Projection Process

The RRB needs to strengthen controls over the actuarial projection process that
supports the projections and estimates presented in the statement of social
insurance, in the notes to the financial statements, and as required supplementary
information.

During FY 2005, the OIG performed a detailed evaluation of controls over the
actuarial projection process that disclosed inadequacies in internal control over the
projection process and related reports. 3 Although responsible management and
staff had described extensive controls over the preparation of projections, estimates
and reports, they had not formalized their policies and procedures, did not capture
evidence of the operation of controls, and did not perform periodic evaluations of
compliance with internal requirements.

During FY 2006, the Bureau of the Actuary responded to the OIG’s findings by
documenting their internal control structure through the RRB’s management control
review process. This process included development of an updated chart of controls
and a bureau-level assessment of the operation of those controls.
Corrective action taken during FY 2006 represents significant progress but
management has not yet published formal policies and procedures, developed
documentation to support the actuarial model or implemented a formal quality
assurance process. These deficiencies were cited in the OIG’s FY 2005
evaluation.




3
 “Review of Internal Control Over the Actuarial Projection Process,” OIG Report #05-04, May 5,
2005.
Letter to Management                                                                 Page 6

                       MEMORANDUM ON INTERNAL CONTROL

Reportable Conditions

Prompt Payment Act

As a result of an FY 2005 evaluation of controls over compliance with the Prompt
Payment Act, the OIG reported that existing systems and procedures had not
been effective in ensuring that interest is paid to vendors in accordance with the
requirements of the law. 4 At that time, we observed that the RRB did not identify
all invoices on which interest should be paid, did not pay the correct amount of
interest when a late payment was recognized, and that controls were not
adequate to ensure that required restrictions on early payment had been properly
implemented.

During FY 2006, the Bureau of Fiscal Operations made substantial progress in
correcting the deficiencies in both controls and compliance. However, most
changes were implemented more than six months into the fiscal year and have
not been tested by the full range of payment experience. In addition, we have
observed that management has not yet ensured the level of uniform processing
accuracy that would permit the OIG to conclude that the action taken has been
fully effective.

Financial Reporting

Over the years agency responsibility for financial reporting has grown from
preparation of financial statements within six months of fiscal year-end, to
publication of an annual performance and accountability report within 45 days of
fiscal year-end. Publication of that report is an exercise in public accountability of
which preparation of accurate, reliable financial statements is but a single part.

The Bureau of Fiscal Operations is responsible for publishing the RRB’s annual
performance and accountability report. That organization has documented
procedures and controls over its financial reporting process. During our audit we
observed that existing procedures and controls need to be updated to fully ensure
the quality of the RRB’s response to the expanding responsibilities and short
timeframes that are inherent to the reporting process. We also observed that the
existing control framework is over-reliant on the OIG’s annual audit of the financial
statements to ensure the completeness and accuracy of the performance and
accountability report.

The OIG and the Bureau of Fiscal operations have already begun discussing
ways to strengthen the existing control framework.


4
    “Review of Compliance with the Prompt Payment Act,” OIG Report #05-06, June 15, 2005
Letter to Management                                                                   Page 7

                     MEMORANDUM ON INTERNAL CONTROL

The foregoing finding concerning controls over financial reporting was based on errors and
inconsistencies identified during the audit of the RRB’s financial statements and supporting
documentation that indicate that existing controls are not fully effective. The individual
matters that contributed to our overall finding of a reportable condition in internal control
over financial reporting are described in detail in the following section of this memorandum.
Readers should note that all errors identified during the audit were corrected prior to final
publication of agency financial statements.

MATTERS INVOLVING INTERNAL CONTROL THAT, IN THE
AGGREGATE, REPRESENT A REPORTABLE CONDITION

During our audit, we noted certain other matters involving internal control that do not
rise individually to the level of a material weakness or reportable condition.
However, the many matters involving internal control that directly impact the
reliability of the financial statements represent, in the aggregate, a reportable
condition over financial reporting. A detailed description of these control issues
follows.

Errors in the Statements and Related Support Indicate Control Deficiencies

The Bureau of Fiscal Operations (BFO) needs to strengthen controls over the
preparation of financial statements.

During our audit, we identified errors in the statements and inconsistencies between
the statements and the working papers that support them. These errors and
inconsistencies indicate that controls over financial reporting need to be reviewed to
ensure that existing controls are operating as designed and to determine what
additional controls may be necessary.

Incorrect Allocation of Earmarked Funds

The allocation between “earmarked" and “all other” funds did not agree with the total
of preceding lines which impacted the reported net change and ending balances for
those two reporting categories. As a result, the Statement of Changes in Net
Position for the period ended June 30th was revised as follows:

                                    Original          Revised          Difference
        Net Change
            Earmarked Funds       $175,014,762      ($94,751,368)       $269,766,130
              All Other Funds      $21,984,567      $291,750,697      ($269,766,130)

        Ending Balances
           Earmarked Funds        $670,458,393      $400,692,262        $269,766,131
             All Other Funds       $35,419,229      $305,185,360      ($269,766,131)
                        Total     $705,877,622      $705,877,622                  $0
Letter to Management                                                                Page 8

                     MEMORANDUM ON INTERNAL CONTROL


Inconsistencies in Earmarked Funds Note

Note #17 reported two different amounts for “Net Cost of Operations” as of
September 30th.

                                                         Section:
                                       Section:        Statement of
      Note #17 "Earmarked          Statement of Net   Changes in Net
      Funds"                            Cost             Position      Difference
      As Originally Reported
          Net Cost of Operations     $9,726,955,353   $9,726,957,766        ($2,413)
      As Revised
          Net Cost of Operations     $9,726,957,766   $9,726,957,766                $0

The special-purpose financial statement Note #22 “Earmarked Funds” was
prepared inconsistent with general-purpose Note #17 with respect to the same
$2,413.

Inconsistencies between the Statements and
the Working Papers

BFO working papers are the supporting documentation for the preparation of the
financial statements. One of BFO’s controls is the use of formatted Microsoft Excel
spreadsheets to prepare statements from general ledger trial balance data that has
been downloaded from the mainframe computer. The electronic spreadsheets are
the “working papers” that document the preparation of the statements from source
data.

We identified the three discrepancies between the Statement of Budgetary
Resources (SBR) and BFO’s supporting working papers that lead us to question
whether the working papers are being used effectively to prepare and support the
statements.

  •    “Adjusted Unpaid Obligations brought forward, October 1” was correctly
       reported on the SBR as of March 31st, but the balance brought forward per
       the statement did not agree with the supporting working papers which
       reported a figure $1,373 higher.
  •    Line 7, “Total Budgetary Resources,” was correctly reported as of September
       30th, but the amount reported on the statement disagreed with BFO working
       papers which reported a figure $68,739,835 lower than the statement.
Letter to Management                                                              Page 9

                    MEMORANDUM ON INTERNAL CONTROL

  •   Line 8, “Obligations Incurred,” was correctly reported on the SBR as of June
      30th, and the amount on the statement agreed with the total for that line item
      on the BFO working paper. However, that total did not agree with sum of
      individual cells in the BFO working paper; the total had been entered directly
      to the worksheet rather than computed from data in other worksheet cells.
      The total used in the statement and BFO working papers differed from the
      sum of amounts in other spreadsheet cells by $3,451.

Discrepancies of this type indicate that spreadsheet controls do not provide for
adequate linkage between the final statements and the source working papers or for
internal consistency. Such discrepancies are also symptomatic of an incomplete or
inadequate review and approval process.

Inconsistencies In the Documentation of Adjusting Journal Entries

In addition to the working papers discussed above, BFO also summarizes adjusting
journal entries (AJE) in a worksheet that accompanies the working papers and
statements.

We identified differences between the AJEs shown on the working papers that
support the financial statements and the worksheet summarizing those same
entries. We have summarized the discrepancies in the following table.

                                                      Error resulted in Incorrect…
                                    Per BFO                      BFO
                      Per AJE       Working       AJE          Working         Financial
  Period    AJE #   Worksheet       Papers      Worksheet       Papers        Statements
  3/31/06   49-T          $20.00       -0-          √
  3/31/06    abc         -0-       $40,393.68       √
  3/31/06    xyz         -0-       $38,393.95       √
  6/30/06    5-T      $17,467.00       -0-                         √
  6/30/06    6-T      $38,115.00       -0-                         √
  9/30/06    1-P      $24,689.00       -0-                         √
  9/30/06    3-P    ($24,689.00)       -0-                         √
                                                                                SBR
  9/30/06    12-P      ($265.50)      -0-                         √          Understated
  9/30/06    7-T      $27,174.63   $22,823.57                     √

Inconsistencies among the financial statements, BFO working papers and AJE
worksheet indicate that BFO’s review and approval process is not completed prior to
release of the statements for audit.
Letter to Management                                                          Page 10

                    MEMORANDUM ON INTERNAL CONTROL

Incorrect Beginning Balance

The opening balances of three general ledger accounts did not agree with the prior
year closing balances. As a result, the statement of financing as of June 30th
included the following misstatements:

    •    Line 15, “Resources that Finance the Acquisition of Assets,” was overstated
         by $14,436.
    •    Line 19, “Increase in Annual Leave Liability,” was understated by $81,647.

Opening balances should be routinely checked at the beginning of each fiscal year
to ensure the accuracy of financial reporting.

Budgetary Obligations Inconsistent with Proprietary Obligations

An April 2006 journal voucher (JV) 06-07-610 increased the allowance for railroad
retirement bad debts and the related expense account, but the budgetary entries
were omitted from the paper voucher and were not recorded in the general ledger.
As a result, obligations reported in the June 2006 SBR were understated by
$158,534.

The simultaneous recording of budgetary and proprietary entries is a strong control
over the accuracy of budgetary reporting. The absence of budgetary entries should
be recognized as a red flag for further review when non-standard vouchers are
processed. As an additional control, budgetary obligations for benefit expense
could be periodically reconciled with proprietary expense accounts.

Miscellaneous Misstatements

During the audit, we observed several large misstatements that appear to be due to
the lack of an adequate report review and approval process.

   •    $2.6 billion in unrealized gains related to NRRIT-held investments were
        reported on the wrong line of the restated FY 2005 general-purpose
        statement of financing; and
   •    $1.7 billion in unrealized gains related to NRRIT-held investments were
        incorrectly reported as gains on disposition in a note to the special-purpose
        financial statements.
Letter to Management                                                         Page 11

                   MEMORANDUM ON INTERNAL CONTROL

Better Communication Needed to Ensure Adequacy of Accruals

During FY 2006, the year-end benefit accrual accounting estimates which are
prepared by the Bureau of the Actuary did not include provision for a special benefit
accrual payment that exceeded $40 million. The Office of Programs estimated the
amount of the payments and notified the three-member Board and the agency’s
executive committee during the first week of October. However, neither BFO nor
the Bureau of the Actuary recognized this as a matter that needed to be included in
the agency financial statements.

Recommendations

We recommend that BFO:

     1. review existing policies, procedures and controls related to financial
        reporting to identify existing controls that may not be operating as designed
        and consider the need for additional controls; and
     2. develop formal lines of communication between BFO, the Bureau of the
        Actuary and other agency organizations that may originate transactions, to
        ensure the completeness of accruals.

Management’s Response

BFO has agreed to review existing policies, procedures and controls related to
financial reporting and revise and/or add to them as necessary. They have also
agreed to develop formal lines of communication and document them.

The full text of management’s response is presented as Attachment 1 to this
memorandum.


Documentation Supporting Transaction Recording Not Always Adequate

BFO voucher files do not consistently include sufficient documentation to support
transactions recorded in the general ledger. During our audit, we were unable to
obtain adequate assurance concerning the accuracy and propriety of certain
transactions from the voucher files alone. On further inquiry, we received additional
documentation from BFO accountants who referred to desk files or other sources.
However, we expected to see full documentation included as attachments in the
paper voucher files.
Letter to Management                                                                     Page 12

                        MEMORANDUM ON INTERNAL CONTROL

BFO personnel prepare paper vouchers that serve as the basis for input to the
computer-based general ledger. The voucher is signed by the preparer and
authorized by a supervisor or senior accountant. The paper voucher and any
attachments are filed by accounting month and retained in BFO.

All transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination. 5 Such documentation
should be complete, accurate and facilitate tracing the transaction or event and
related information from authorization and initiation, through its processing, to
completion. 6

The voucher files are the official, formally retained records that support general
ledger accounting and should contain sufficient evidence to support transaction
recording. In addition, absent such support, the supervisors and accountants who
approve prepared vouchers do not have sufficient evidence to justify giving their
approval.

A description of specific deficiencies observed during our audit follows.

Transfers from the Department of Labor’s Unemployment Trust Fund

The Department of Labor holds and invests funds not needed immediately to pay
railroad unemployment insurance benefits. Periodically, the Department of Labor
transfers funds back to the RRB as needed to pay benefits. During FY 2006,
BFO prepared 44 vouchers to support recording of such transfers in the general
ledger.

The supporting documentation attached to the paper voucher was incomplete for
11 of the 44 vouchers. The 11 vouchers recorded $21.3 million in transfers.

We observed that 10 voucher files did not include confirmation of the receipt of
funds. In addition, one voucher lacked evidence of management approval; only
an unsigned, undated copy of a standard memorandum of approval had been
attached to the voucher.

Evidence of management’s approval and confirmation of receipt should be retained
with the voucher for every transfer.




5
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 15.
6
    “Internal Control Management and Evaluation Tool,” GAO-01-1008G (8/01) , page 43.
Letter to Management                                                        Page 13

                         MEMORANDUM ON INTERNAL CONTROL

Transfers from the NRRIT

The National Railroad Retirement Investment Trust (NRRIT) was established
pursuant to the Railroad Retirement and Survivors’ Improvement Act of 2001
(RRSIA) 7 . The NRRIT holds and invests funds not needed immediately to pay
benefits from the railroad retirement account. Periodically, the NRRIT transfers
funds back to the RRB as needed for the payment of benefits.

We reviewed voucher documentation supporting the 10 transfers from the NRRIT to
the RRB’s trust funds during FY 2006. We identified seven transfers totaling
approximately $661 million for which the supporting documentation was incomplete
and inconsistent.

None of the seven questioned vouchers included documentation to support senior
management’s approval of the transfer. In addition, one lacked evidence of the
receipt of funds and four lacked support for the computation of the transfer amount.

Evidence of management’s approval, confirmation of receipt and support for
calculation of the transfer amount should be retained with the voucher for every
transfer.

Redemption of Investments

Investments are redeemed periodically to fund benefit payments. Our tests of
internal control for transactions processed during the first 9 months of FY 2006
identified 21 periodic investment redemptions. Supporting documentation for 19 of
21 redemptions was limited to a summary spreadsheet; memoranda authorizing the
redemption and detailing the trust funds and amounts were not on file. The 19
redemptions for which file documentation was inadequate totaled $5.6 billion.

The accountant responsible for preparing these vouchers had retained the
authorizing memoranda instead of attaching them to the voucher prior to filing.
Evidence of management’s approval should be retained with the voucher for every
redemption.




7
    Public Law 107-90.
Letter to Management                                                          Page 14

                    MEMORANDUM ON INTERNAL CONTROL

Recording Contingent Liabilities

Our review of supporting documentation disclosed that contingent liabilities as of
September 30, 2006, had been overstated by $28.7 million. The voucher
supporting general ledger recording for this liability was not adequate to support the
amount recorded. The support attached to this voucher included reference to a
memorandum that had not yet been issued, and a note indicating that an informal
communication with the Office of General Counsel had taken place.

Estimates of the monetary impact of legal liabilities should be provided in writing by
the Office of General Counsel and be specific as to amount. The OIG identified the
misstatement by comparing the amount recorded and reported in the RRB’s
financial statements with a written communication from the Office of General
Counsel to the RRB’s three-member Board; that document pre-dated the recording
by BFO.

Benefit Payment Activity

The RRB makes periodic payment of railroad retirement benefits. Amounts
disbursed to annuitants and withholding for taxes and Medicare premiums are
summarized in an electronic spreadsheet and recorded monthly.

Our review of supporting documentation disclosed that:

   •   one of the 12 vouchers supporting withholding and transfer of Medicare
       premiums did not include the summary spreadsheet; and
   •   one of the 12 vouchers supporting withholding and transfer of income taxes
       did not include documentation to support reduction of the amount to be
       transferred to the Internal Revenue Service. The transfer amount had been
       properly reduced by a pending refund of $37,335.


Voucher Shows Incorrect General Ledger Accounts

During FY 2006, the RRB revised the method of accounting for unemployment and
sickness contributions. These contributions are recorded using standard voucher
codes that have been established in the automated general ledger. The paper
voucher reports both the code and the numbers of the general ledger accounts that
will be debited/credited by the transaction.
Letter to Management                                                                   Page 15

                        MEMORANDUM ON INTERNAL CONTROL

BFO did not revise the related paper voucher form to correctly reflect the change in
the accounts charged by the standard voucher until three months after the change
had been implemented. As a result, the paper voucher on file does not agree with
general ledger recording for approximately $21.4 million in contributions.


Recommendations

We recommend that BFO:

        3. develop written procedures establishing requirements for voucher
           documentation; and
        4. perform periodic quality assurance assessments to ensure compliance
           with established procedures for voucher documentation.

Management’s Response

BFO has agreed to develop written procedures establishing requirements for
voucher documentation. They will also perform periodic quality assurance
assessments after hiring and training an additional staff member later this year.

The full text of management’s response is presented as Attachment 1 to this
memorandum.


Supervisory Review and Approval of Vouchers Not Fully Effective

BFO has not ensured that transactions entered into the automated general ledger
are supported by properly approved vouchers.

Internal control over data entry to automated systems should include supervisory or
independent review of data before it is entered into the application system. 8
Accounting transactions should be reviewed and approved by authorized personnel
prior to recording to ensure the accuracy and propriety of transaction recording.
BFO procedure provides for supervisory review of documentation supporting
transactions prior to recording in the general ledger.




8
    “Internal Control Management and Evaluation Tool,” GAO-01-1008G (8/01), page 48.
Letter to Management                                                            Page 16

                     MEMORANDUM ON INTERNAL CONTROL

During our audit, we observed transactions which had been recorded in the general
ledger for which the supporting paper voucher had not been approved by a
supervisor or senior accountant. We also identified transactions for which the paper
voucher showed an approval dated after the transaction had been recorded in the
general ledger.

Our review of 36 vouchers supporting the recording of benefit expense during the
first 9 months of FY 2006 disclosed a total of 13 (35%) supporting disbursements of
$4.3 billion for which the paper voucher had not been properly approved prior to
recording in the general ledger. We identified:

   •    four vouchers with no supervisory approval;
   •    seven vouchers with approval dates after the date of general ledger posting;
        and
   •    two vouchers for which the date of the approval had been omitted.

We also identified the following additional transactions for which the date of voucher
approval was after the date of general ledger posting:

   •    Five of 12 vouchers supporting the recording of transfers-in from the Social
        Security Administration totaling approximately $493 million in transfers;
   •    Four of 12 vouchers supporting the recording of employer contributions for
        the unemployment and sickness program totaling approximately $40 million;
        and
   •    One of 10 vouchers supporting the recording of a $10 million transfers-in
        from the NRRIT.

Approvals can be an effective control but only if applied consistently and timely.

Recommendations

We recommend that BFO:

       5. remind staff responsible for data input that only properly approved
          vouchers should be recorded in the general ledger;
       6. remind staff responsible for voucher approval of applicable BFO
          procedures; and
       7. perform periodic quality control tests of voucher recording to ensure that
          the supervisory review of vouchers supporting general ledger accounting is
          being completed timely.
Letter to Management                                                            Page 17

                    MEMORANDUM ON INTERNAL CONTROL

Management’s Response

BFO has reminded responsible staff of the requirements and procedures applicable
to voucher preparation and approval. They will also perform periodic quality control
tests after hiring and training an additional staff member later this year. The full text
of management’s response is presented as Attachment 1 to this memorandum.

OIG’s Comments on Management’s Response

Management’s reminder (provided to the OIG as an attachment to management’s
response) instructs BFO staff that documentation supporting certain transactions
should not be attached to the paper vouchers. Instead, staff are advised to store
this documentation in binders separate from the voucher files.

We criticized this practice in the preceding finding which addressed the adequacy of
supporting documentation (see page 11). We urge BFO to revisit this decision
when they develop written procedures establishing requirements for voucher
documentation (see recommendation #3).


OTHER MATTERS INVOLVING INTERNAL CONTROL
During our audit, we also noted certain other matters involving the RRB’s internal
control structure and its operation. Although these matters do not rise to the level of
a material weakness or reportable condition, either individually or in the aggregate,
they represent areas in which control weaknesses increase the risk of error or
mishandling.

The details of our observations and recommendations for corrective action follow.

Management Control Review Process

The RRB’s Management Control Review (MCR) program supports the agency
compliance with the Federal Managers’ Financial Improvement Act (FMFIA).
During our audit, we observed that the RRB’s MCR program does not include
performance reporting among agency responsibilities for which controls must be
formally identified and tested. In addition, the MCR documentation for General
Ledger Accounting which includes financial reporting is out-of-date.
Letter to Management                                                      Page 18

                    MEMORANDUM ON INTERNAL CONTROL

Performance Reporting

The annual management assurances offered by the three-member Board pursuant
to the requirements of FMFIA include controls over performance reporting. The
existing MCR program is not adequate to support such assurances because it does
not include formal identification and testing of controls over the preparation and
reporting of performance measures.

General Ledger Accounting

MCR documentation has not been updated or controls tested since fiscal year 2000
(about 6 years). During that time, there have been changes to the financial
reporting process which are not reflected in the MCR documentation such as:

   •    the implementation of PC-based spreadsheets to prepare agency financial
        statements from data downloaded from the mainframe computer;
   •    accounting for transfers to/from the NRRIT;
   •    use of FedInvest to purchase and redeem investments; and
   •    implementation of the special closing package process.

Recommendations

We recommend that the Management Control Review Committee take action to:

       8. include performance reporting in the MCR program; and
       9. obtain updated control documentation for general ledger accounting and
          ensure more frequent periodic testing.

Management’s Response

The Management Control Review Committee has agreed to require testing of
controls over the performance indicator data used for the Annual Performance Plan
in the Performance and Accountability Report.

With respect to general ledger accounting, the Management Control Review
Committee advised that the General Ledger Assessable Unit is scheduled for a
management control review during fiscal year 2007. Their response did not
address the issue of frequency of future testing.

The full text of management’s response is presented as Attachment 2 to this
memorandum.
Letter to Management                                                        Page 19

                   MEMORANDUM ON INTERNAL CONTROL

Reliability of Legal Representations

As part of the annual financial statement audit, the RRB must formalize
representations concerning the status of outstanding litigation, claims and
assessments in a letter to the Inspector General. The OIG relies on these
representations in planning and performing the audit. The representation letters are
ultimately transmitted to the Office of Management and Budget, the Government
Accountability Office and the Financial Management Service of the U.S. Department
of the Treasury (Treasury).

During the FY 2006 audit, the RRB’s General Counsel transmitted the agency’s
interim legal representations in a letter dated August 24, 2006. However, that letter
did not reflect an August 14, 2006 judgment which impacted the status and amount
of probable loss in an IRS tax case with potential impact on the RRB’s trust funds.
As a result of this judgment, the amount for which the RRB is contingently liable was
reduced by $15 million.

The Office of General Counsel did not obtain an update of the status of this case
prior to preparing the interim legal letter.

Recommendation

   10. We recommend that the Office of General Counsel ensure that its
       procedures for preparation of legal representations offered in conjunction
       with the financial statement audit are sufficient to ensure that the agency
       representations reflect the most current available information.

Management’s Response

The Office of General Counsel concurs with the recommendation.

In their response, the Office of General Counsel explains that, the RRB is not a
party to most of the pending litigation reported in the RRB’s legal representation
letter most of which is brought under the Railroad Retirement Tax Act which is
administered by the Internal Revenue Service. The Office of General Counsel
plans to send letters to the Internal Revenue Service and the Department of Justice
advising them of the importance of pending litigation and of the need to provide
timely updates on the status of pending litigation to the RRB. The Office of General
Counsel will contact both organizations again immediately prior to the submission of
legal representation letters and updates to such letters.

The full text of management’s response is presented as Attachment 3 to this
memorandum.
Letter to Management                                                         Page 20

                   MEMORANDUM ON INTERNAL CONTROL

Ensuring Compliance with Form and Content Requirements

The Office of Management and Budget (OMB) establishes requirements for the
form and content of agency Performance and Accountability Reports. These
requirements include pro forma financial statements, note disclosures and detailed
instructions for other accompanying information. Treasury publishes crosswalks
linking the accounts that comprise the U.S. Standard General Ledger to the lines in
the pro forma financial statements.

OMB and Treasury periodically revise their guidance and instructions which are
often published final after BFO has developed the formats for financial and
performance reporting. As a result, BFO typically addresses this guidance through
a change identification process.

During our audit, we observed that existing procedures are not sufficiently detailed
to support this high risk process. Although BFO procedures are detailed with
respect to the review of OMB form and content requirements, BFO procedures do
not adequately address controls such as a documented review and approval
process. In addition, currently documented procedures and controls do not
specifically address changes in Treasury crosswalks.

Recommendation

   11. We recommend that BFO develop more detailed procedures for the
       change identification process used to update the form and content of the
       RRB’s performance and accountability report, or replace it with a more
       comprehensive identification of requirements. Whichever method BFO
       uses should be supported by controls that include at least one level of
       supervisory approval and retention of supporting documentation.

Management’s Response

BFO has agreed to develop more detailed procedures for the change identification
process. The full text of management’s response is presented as Attachment 1 to
this memorandum.
Letter to Management                                                         Page 21

                   MEMORANDUM ON INTERNAL CONTROL

Federal Financial System

The Federal Financial System (FFS) is the mainframe application that supports
general ledger accounting. FFS is a database system that uses various interrelated
tables to record, process, summarize and report accounting information. The
system includes control features that permit management to monitor and limit
spending as well as restrict user access to data and transactional authority.

Spending Control Features Not Fully Effective

FFS includes control features that will prevent spending documents from exceeding
the available funds at the appropriation, apportionment or allotment levels. A
spending document is any FFS system document that records an obligation,
expenditure, or commitment.

FFS spending controls did not prevent expenditure of funds from a fund’s budget
object code with a zero balance. Benefit payments of $8.3 million were charged to
Fund 0111 (Vested Dual Benefits), Budget Object Code 4222 (Benefit payments-
Canadian) in November, 2005 even though there were no budgeted funds in this
Budget Object Code.

This example indicates that controls designed to prevent the agency from exceeding
appropriated and apportioned spending levels have not been fully implemented.
These controls are intended to prevent the agency from inadvertently committing an
anti-deficiency violation.

Incomplete FFS Table Entries

The use of pre-defined accounting entries for routine recurring transactions is a key
element of FFS implementation and serves as a control over the accuracy of
transaction processing.

The Accounting Entries Definition (ACED) table describes the transaction codes that
are used to record accounting events in the system. The Accounting Entries
Reference table (ACEN) controls the accounting entries that are made when a
transaction described in the ACED table is processed. During our audit, we
identified three transactions for which codes had been established in the ACEN
table for which no corresponding description had been input to the ACED Table.
Two of the three codes had been used in the general ledger during FY 2006.
Letter to Management                                                             Page 22

                      MEMORANDUM ON INTERNAL CONTROL

                  -----------ACED TABLE-------------   Transactions Recorded
                  DESCRIPTION            CODE          Number       Amount
                 No Description      SV 13                16           $16,044
                 No Description      SV 84                 3        $6,000,000
                 No Description      SV 85              None          -0-

As a result, the automated system does not describe adequately the financial
activities recorded.

Separation of Duties

BFO is the organizational owner of FFS, and the FFS system administrator is an
employee in the Accounting, Treasury and Financial Systems Division of that
organization.

During the early months of FY 2006, we observed that the FFS system
administrator approved certain transactions that had been entered into the FFS
system by other BFO personnel. This is inconsistent with the principle of separation
of duties and defeats the purpose of requiring system approvals. The system
administrator cannot be expected to have the knowledge or experience to make an
informed decision concerning the propriety of transactions being recorded.

Based on subsequent tests, it appears that this practice was curtailed later in the
year. However, it is our understanding that no formal policy had been adopted
prohibiting a system administrator from entering, approving or correcting
transactions.

Privacy Issues

Users are generally granted system privileges using pre-established standard
profiles. These profiles may restrict users to “read-only” access to certain tables in
the system or may permit a user to enter, change, or approve a broad or limited
range of transactions.

The bank account information and social security/tax identification numbers of
vendors, including agency employees, can be viewed by anyone with read-only
access to the FFS system.

The RRB uses social security numbers as an identifier when agency employees are
established as payees in the FFS system. Several system screens that show this
identifier can be viewed by individuals who have been granted read-only access to
the system. We also noted that one screen included in the read-only access user
profile shows bank account numbers.
Letter to Management                                                           Page 23

                    MEMORANDUM ON INTERNAL CONTROL


FFS screens that are included in the standard read-only profile include:

     •   the EFTH, VEND, PVHT, PVLT and VNAM screens which show employee
         social security numbers; and
     •   the EFTH screen which shows bank account information.

Recommendations

We recommend that BFO:

    12. review the spending control settings in FFS and make adjustments to
        ensure that controls are operating to permit spending only where budget
        authority has been allocated;
    13. require periodic review of FFS for missing or incomplete table entries;
    14. formalize a policy formally prohibiting the administrators of systems owned
        by BFO from entering, approving or modifying transactions;
    15. review the practice of using employee social security numbers as
        identifiers to determine the feasibility of ending that practice now or in the
        future; and
    16. review the screens that are included in the various user profiles to identify
        personal information that may not be required by routine holders of those
        privileges.

Management’s Response

In response to recommendation #12, BFO’s Budget Division reviewed the FFS controls
and responded that “controls are set at the fund level, and our review indicates that all are
set for full control at the appropriation, apportionment and allotment levels.”
The full text of the Budget Section’s response is presented as Attachment 4 to this
memorandum.

BFO has agreed to require periodic review of FFS for missing or incomplete table
entries and has already formalized and issued a policy prohibiting administrators of
systems owned by BFO from entering, approving or modifying transactions. With
respect to FFS privacy issues, BFO has agreed to review the practice of using
employee social security numbers as identifiers to determine the feasibility of ending
that practice and to review the screens that are included in the various user profiles
to identify personal information that may not be required by routine holders of those
privileges. The full text of BFO’s response on these matters is presented as
Attachment 1 to this memorandum.
Letter to Management                                                         Page 24

                     MEMORANDUM ON INTERNAL CONTROL

Posting Transactions to the General Ledger

The RRB needs to strengthen controls over the preparation of vouchers and the
posting of transactions to the automated general ledger. It is crucial that these
manual processes be as accurate and timely as possible since this information
feeds the RRB’s general ledger accounting system which, in turn, generates
information for the financial statements.

Delayed Recording

Our review of 54 paper vouchers supporting transfers-in from the NRRIT and
Department of Labor disclosed four vouchers that had been recorded in the general
ledger more than seven calendar days after the transfer had been completed. The
vouchers questioned during the audit totaled $296 million, including a single
voucher for $163 million that was recorded 36 calendar days after transfer.

Inaccurate Posting

Our review of documentation supporting benefit payment expense identified two
vouchers that had been recorded in the general ledger with an incorrect budget
object code even though the paper voucher had been properly prepared. Both
paper vouchers had been approved prior to or on the date of general ledger
recording.

In addition, we identified an instance of double recording. Recoveries of
unemployment and sickness receivables from the retirement annuities in current
pay status were recorded twice when the Office of Programs forwarded revised
information for recoveries that had previously been recorded. As a result, railroad
retirement benefit expense was overstated at fiscal year-end by approximately $1
million and unemployment and sickness expense was understated by the same
amount.

Recommendations

We recommend that BFO:

   17. establish a standard for recording timeliness; and
   18. perform periodic quality assurance testing to monitor timeliness and
       accuracy of posting to the general ledger.
Letter to Management                                                        Page 25

                        MEMORANDUM ON INTERNAL CONTROL

Management’s Response

BFO has agreed to establish a standard for recording timeliness. They will also
perform periodic quality assurance testing after hiring an additional staff member
later this year. The full text of management’s response is presented as Attachment
1 to this memorandum.

Report on Budget Execution – Approved Copy Missing

Comparison of the SBR with Standard Form (SF) 133 “Report on Budget Execution”
is a required part of the financial statement audit. The SF-133 is prepared by fund.
The final signed SF-133 is the only evidence of review and approval by agency
management that is retained in agency files.

Our audit included review of forms SF-133 as of the end of the first 6-month, 9-
month and 12-month periods. The RRB had not retained a signed copy of the
SF-133 for two funds reported as of March 31st.

Recommendation

      19. We recommend that BFO review its procedures and controls related to the
          preparation, review and approval of forms SF-133 to ensure that
          preparation and approval at every level are documented.

Management’s Response

BFO has agreed to review procedures and controls related to the preparation,
review and approval of forms SF-133 to ensure that preparation and approval at
every level are documented. The full text of management’s response is presented
as Attachment 1 to this memorandum.


Recording NRRIT Transactions

The National Railroad Retirement Investment Trust (NRRIT) was established
pursuant to the Railroad Retirement and Survivors’ Improvement Act of 2001
(RRSIA) 9 . The NRRIT holds and invests funds not needed immediately to pay
benefits from the railroad retirement account. Periodically, the NRRIT transfers
funds back to the RRB as needed for the payment of benefits.

Under RRSIA, the NRRIT is not a department, agency or instrumentality of the
Government of the United States. In addition, the law specifically exempts the

9
    Public Law 107-90
Letter to Management                                                      Page 26

                  MEMORANDUM ON INTERNAL CONTROL

NRRIT from compliance with Title 31, United States Code which governs the
monetary and financial operations of the Federal government. The RRB
provides limited accounting services to the NRRIT which include maintaining a
general ledger for the NRRIT based on summary information provided by the
NRRIT from its own accounting systems.

During our audit, we observed that transfers from the NRRIT had been treated as
an intra-entity transaction between government funds under the RRB’s control. The
general ledger entries were documented with a single journal voucher that included
both the transfer-in from the NRRIT and the related transfer-out by the NRRIT.

Recommendation

   20. We recommend that BFO consider revising the accounting treatment and
       method of documentation for NRRIT transfers to treat the NRRIT as an
       independent entity, unrelated to the RRB.

Management’s Response

BFO has agreed to revise the accounting treatment and method of documentation
for NRRIT transfers to treat the NRRIT as an independent entity, unrelated to the
RRB. The full text of management’s response is presented as Attachment 1 to this
memorandum.
          .       . . - ~ . . C ( . ) ~ ~ . . . I L * P ~ . * ; . F ~ R .        .'.. .;*-.
                                                                                    ,         .- . J   ..

                                                                  ATTACHMENT 1                              Page 27
                                                                                                              FIRM C-11Et [I-121
                                                                                 R A I L R O A DR E T I R E M E NBTO A R D




              Henrietta B. Shaw
              Assistant Inspector General for Audit


              John M. Walter
              Chief of Accounting, Treasury and Finan
              THROUGH= Kenneth P. Boehne
                            Chief Financial Officer


SUBJECT: Memorandum on Internal Control -
         Fiscal Year 2006 Financial Statement Audit



Thank you for giving us the opportunity to comment on your draft Memorandum on
Internal Control. We appreciate your recognizing that the financial reporting process
has expanded responsibilities and shorter time frames. The process has expanded
from preparation of financial statements within 6 months of the fiscal year-end, to
publication of an annual Performance and Accountability Report within 45 days of the
fiscal year-end. We have reviewed the above draft memorandum dated January 19,
2007, and our comments on recommendations are as follows:

Recommendations:

    1. Review existing policies, procedures and controls related to financial
       reporting to identify existing controls that may not be operating as
       designed and consider the need 'for additional controls.

        We will review existing policies, procedures and controls related to financial
        reporting and revise andlor add to them as necessary. Target date: July 31,
        2007.


    2. Develop formal lines of communication between BFO, the Bureau of the
       Actuary and other agency organizations that may originate transactions,
       to ensure the completeness of accruals.

        We will develop additional formal lines of communication and document them.
        Target date: July 31,2007.
                                                                             Page 28
                                                                             Attachment 1

 3. Develop written procedures establishing requirements for voucher
    documentation.

    We will develop written procedures establishing requirements for voucher
    documentation. Target date: July 31,2007.


 4. Perform periodic quality assurance assessments to ensure compliance
    with established procedures for voucher documentation.

    We will perform periodic quality assurance assessments after hiring and
    training an additional staff member later this year.


 5. Remind staff responsible for data input that only properly approved
    vouchers should be recorded in the general ledger.

    We have reminded staff members responsible for data input that only properly
    approved vouchers should be recorded in the general ledger. See
    attachment A.


 6. Remind staff responsible for voucher approval of applicable BFO
    procedures.

    We have reminded staff members who are responsible for voucher approval
    regarding the applicable BFO'procedures. In addition, this will be incorporated
    into written procedures. See attachment A. Target date: July 31, 2007.


 7. Perform periodic quality control tests of voucher recording to ensure that
    the supervisory review of vouchers supporting general ledger accounting
    is being completed timely.

    We will perform periodic quality control tests after hiring and training an
    additional staff member later this year.


1 1 We recommend that BFO develop more detailed procedures for the
    change identification process used to update the form and content of the
    RRBJsperformance and accountability report, or replace it wifh a more
    comprehensive identification of requirements. Whichever method BFO
    uses should be supported by controls that include at least one level of
    supervisory approval and retention of supporting documentation.

    We will develop more detailed procedures for the change identification
    process. Target date: July 31,2007.
                                        3                                       Page 29
                                                                                Attachment 1
13. Require periodic review of FFS for missing or incomplete table entries.

    We will require periodic review of FFS for missing or incomplete table entries.
    Target date: July 31, 2007.


1   Formalize a policy formally prohibiting the administrators of systems
    owned by BFO from entering, approving or modifying transactions.

    We have formalized and issued a policy prohibiting the administrators of
    systems owned by BFO from entering, approving or modifying transactions.
    See attachment B.


15. Review the practice of using employee social security numbers as
    identifiers to determine the feasibility of ending that practice now or in
    the future.

    We have already been in contact with the RRB's Privacy Officer regarding this
    recommendation. We will review the practice of using employee social security
    numbers as identifiers to determine the feasibility of ending that practice now or
    in the future. Target date: September 30, 2007.


16. Review the screens that are included in the various user profiles to
    identify personal information that may not be required by routine holders
    of those privileges.

    We will review the screens that are included in the various user profiles to
    identify personal information that may not be required by routine holders of
    those privileges. Target date: July 31, 2007.


17. Establish a standard for recording timeliness.

    We will establish a standard for recording timeliness. Target date: July 31,
    2007.


18. Perform periodic quality assurance testing to monitor timeliness and
    accuracy of posting to the general ledger.

    We will perform periodic quality assurance testing after hiring an additional staff
    later this year.
                                                                                Page 30
                                                                                Attachment 1

      19. We recommend that BFO review its procedures and controls related to
          the preparation, review and approval of forms SF133 to ensure that
          preparation and approval at every level are documented.

          We will review procedures and controls related to the preparation, review and
          approval of forms SF-133 to ensure that preparation and approval at every
          level are documented. Target date: July 31,2007.


      20. We recommend that BFO consider revising the accounting treatment and
          method of documentation for NRRIT transfers to treat the NRRlT as an
          independent entity, unrelated to the RRB.

          We will revise the accounting treatment and method of documentation for
          NRRlT transfers to treat the NRRlT as an independent entity, unrelated to the
          RRB. Target date: July 31,2007.


Attachments

cc:    Lynn Harvey, Privacy Officer (BIS)
       Linda Wimbourne, Management Analyst (OIG)
                                                                                                     Page 31
                                                                                                     Attachment 1
                                                                                                     Page 1 of 1
  Walter, John                                                                                  Attachment A

  From:     Fleming, Edmund
  Sent:     Thursday, January 25,2007 8:30AM .
  To:       Yarber, Rita; Aguila, Jose; Brandt, Ralph; Fultz, Jenny; Guirguis, Samir; Lannin, Richard; Natividad,
            Editha; Pesola, Daniel; Ruf, Juanita; Scott, Othel; Stubits, Elizabeth; Wilke, Alvin
  Cc:       Walter, John
  Subject: Vouchers

This email concerns two recommendations the auditors included in the Letter to Management Memorandum on
Internal Control.

             remind staff respandlble for data input that only properly approved vouchers should be
            recorded i n the general ledger;
                    -
Paper vouchers should have the transaction code, SGL accounts (bath propfietary and budget where necessary)
amounts, description, BOC's, and RSC's,. SufFicient documentation should be attached to the paper voucher to
support the transaction except for 1) DOL transfers, 2) investment transactions, and 3) NRRm transactions.
Thew three types of transactions should have the documentation stored in a three ring binder, attached to the SV
or JV should be a fohn that states where the supporting documentation can be located. After the reviewer has
approved and dated the SV or N,it can then be input into the FFS system and stamped "posted.".



             remind staff reqponslble for voucher approval of applicable 6f0 pmcedum; an31


   All paper vouchers should be s i g d and dated by the reviewer and returned to the prepam for fling. The
   date af the approval should be prior to the date stamped "posted."


   thanks, Ed
                                                                                           Page 32
                                                                                           Attachment 1

                                                                                            Page 1 of 1
Walter, John                                                                      I   Attachment B

From:     Walter, John
Sent:     Tuesday, January 16,2007 3:09 PM
To:       Garmager, Kristafer, Zulevic, Michael
CG:       Boehne, Kenneth; Fleming, Edmund; Blalock, Georgia; McCarthy, Thomas; Miller, David
Subject: Policy
Tracking: Recipient          Read
          Garrnager, Krisbkr Read: 1/16/2007 3:ll PM
          Zulevic, Michael   Read: 1/31/2007 12:33 PM
          Boehne, Kenneth    Read: 1/16/2007 3:10 PM
          Fleming, Edmund    Read: 1/16/2007 3:16 PM
          Blalock, Georgia   Read: 1/16/2007 3:43 PM
          McCarthy, Thomas Read: 1/16/2007 3:24 PM
          Miller, David      Read: l/16/2007 3 5 8 PM



             -
             During the early months of FY 2006, the OIG observed that the FFS systems
             administrator approved certain transactions (at the request of other B W
             personnel) that had been entered into the f f S system by other W 0 pefwnnel.

             The OIG brought this matter to the attention of the system admh-    and the
             manager in who= section the transadiins originated; the OIG was advised that
             the practke would be curtailed which wais confrrned by wbsequent audit tests.



            Please be advised that for the internal contrd purposes (separation of duties)
            you, as ~ministmtursof systems owned by BFO, are pruhiied fram enbring,
            approving or modifying transactions m the BFO systems.

            Thank you.
                                           ATTACHMENT 2                                    Page 33

                                                                                               FORM 6-1161 [I-121
                                                                      R A I L R O A DR E T I R E M E N BTO A R D




           : Henrietta B. Shaw
             Assistant Inspector General for Audit


FROM      : John M. Walter
                               p4.H+
              Chair, Management Control Review Committee


SUBJECT:      Draft Memorandum on Internal Control -
              Fiscal Year 2006 Financial Statement Audit



Thank you for giving us the opportunity to comment on your draft memorandum. We have
reviewed the above draft memorandum dated January 10,2007, and our comments on
recommendations for the Management Control Review C~mmitteeare as follows:

Recommendations:

      8. include performance reporting in the Management Control Review program.

         The Management Control Guide (MCG) requires the responsible official for each
         assessable unit (AU) report annually on key performance indicators for their AU .
         We will revise the MCG to require testing of the controls over the performance
         indicator data used for the Annual Performance Plan in the Performance and
         Accountability Report. Target date: September SO, 2007.


      9. obtain updated control documentation for general ledger accounting and
         ensure more frequent periodic testing.

         The General Ledger Assessable Unit is scheduled, as part of the Management
         Control Plan and Schedule of Due Dates, for a management control review in
         fiscal year 2007. Target date: September 30, 2007.


cc:   Kenneth P. Boehne, Chief Financial Officer
      Catherine A. Leyser, Director of Assessment and Training
      John Baer, Director of Retirement Benefits
      Ronald J. Hodapp, Chief of Information Resources Management
      Lloyd A. Kingsbury, Chief of Support Services - Administration
      Rachel L. Simmons, Executive Assistant to the General Counsel
      Georgia Blalock, Budget Officer
      Hattie Fitzgerald, Financial Compliance Officer
      Linda Wimbourne, Management Analyst
      Bill Flynn, Executive Assistant
                                           ATTACH                                          Page 34


                                                                                              FORM 0-1 lSf (1-92)

                                                                        RAILROADRETIRE~ENT
                                                                                         BOARD




                                               January 23,2007


To: Henrietta B. Shaw
    Assistant Inspector General, Audi;

From: Steven A. Bartholo


Subject: DraR Letter to Management
         FY 2006 Financial Statement Audit


This is in response to your memorandum dated January 19,2007, requesting our response
to Recommendation 10 contained in the above-referenced draft letter with respect to
preparation of the legal representation letter. Recommendation 10 states as follows:
"We recommend that the             of General Counsel ensure that its procedures for
preparation of legal representations offered in conjunction with the financial statement
audit are sufficient to ensure that the agency representations reflect the most current
available information."

We concur with your recommendation and will take the actions set out below.

Nearly all of the litigation reported in our legal representation letters is litigation brought
under the Railroad Retirement Tax Act for refunds of taxes paid under that Act. The
Railroad Retirement Tax Act is administered by the Internal Revenue Service, and the
Railroad Retirement Board is not a party to such litigation. In the past, we have had an
informal agreement with the Department of Justice that, despite the fact that the RRB is
not a party to Tax Act litigation, the RRB should be kept informed concerning the
progress of Tax Act litigation because of the impact of such litigation on the Board's
administration of the Railroad Retirement Act. For the most part, this informal
agreement with the Department of Justice has functioned well; however, we have not
always been advised immediately of litigation developments.

We will send letters to both the Internal Revenbe Service and the Department of Justice
no later than March 1,2007 advising the Service and Department of the importance of
Railroad Retirement Tax Act litigation to the Railroad Retirement Board and of the need
to provide timely updates to the Board of the status of litigation. We will also directly
contact both the Internal Revenue Service and the Department of Justice immediately
prior to the submission to the Office of Inspector General of legal representation letters
and updates to such letters.
                                        ATTACHMENT 4                            Page 35



            UNITED    GOVERNMENT
                 STATES                                                           FORM Gll5f (1-92)

                                                                                BOARD
                                                               RAILROADRETIREMENT
            MEMORANDUM

TO:       : Henrietta 3.Shaw
            Assistant Inspector General for Audit


FROM      : Georgia C. Blalock
            Budget Officer
            T ~ U G H Kenneth
                           :      P. ~ o e h n e
                         Chief Financial Officer

SUBJEm: Memotandm on Internal Cofl:trol-
            Fiscal Year 2006 Financial Statement Audit



I was asked to review remmmendation number 12 frm your draft Memorandum on
Internal Control, dated J E U I19,2007.
                                ~       My c o ~ e n t follow:
                                                        s

12. Review the spe-g    csdti'tl settiugB in FFS Etnd make adjustments to ensure
    that mntrola are qehting to gefmit spendiag only where budget authority
    ha$ been allocated.

   We have retriewed the FFS contkols, as the Office of Inspector General (OIG)
   advised. These mratroIs are set at the h d level, and our review indicates that all
   are set for fill control at the appropriation, apportionment and allotment levels.

   It should be noted that cofitrols in FFS are established to prevent overspending in
   accordance with the currefit qpproved apportionment for each h d , and with
   allatmeat level amom&as approved by RRB management. Funding for dual
   benefit payments is apportiened an line 8B1 of the SF-132 Apportionment and
   Realys~rtionmentSabedufe for the Dual Benefits Payments Account. All hnds are
   allotted to account code 01 11, organization/division code 2222, and budget object
   code 4220 - Benefit payments.

   h the ex&ple cited by the OIG, an e&or wm made in entering the budget object
   code as 4222 - C d i m benefit p a w t s , which did not include an allotted
   amount far the Dud Benefits Payments Account. However, the system included a
                                                                                          \
                                                                                   Page 36
                                                                                   Attachment 4


    spending code flag for object code 4222, which pointed to object class 4220. As a
    result, the dual benefits were charged cortectly to the Dual Benefits Payments
    Account, budget code 4220, which did include sufficient fbnding. The flag for
    code 4222 has since been adjusted so that it is not associated with 4220, and will
    generate an error message "allotment not found" if such a keying error occurs
    again.

    The data entry error did not create a risk of exceeding the apportioned or allotted
    funding for the account since full controls were in place at both levels.

I appreciate the opportunity to comment on this item. Please let me know if you would
like to &s;ws this further.

cc: Linda Wimbourne, Management Analyst (OIG)
    Jo h Walter, Chief of Accounting Treasury and Financial Systems
    Kris Garmager, Systems Administrator
    Milt Vasich, Senior Budget Analyst
